Nos. 19-251 & 19-255
═════════════════════════════════════════

In the Supreme Court of the United States
_________

AMERICANS FOR PROSPERITY FOUNDATION, Petitioner
v.
XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA, Respondent.
and
THOMAS MORE LAW CENTER, Petitioner
v.
XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA, Respondent.
________
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
________________________________________________
Brief Amicus Curiae of American Target
Advertising, Inc. in Support of Petitioners
_______________________
Mark J. Fitzgibbons
Counsel of Record
American Target
Advertising, Inc.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676

mfitzgibbons@americantarget.com

Counsel for Amicus Curiae
February 26, 2021

_______________________________________________________

i
QUESTION PRESENTED
California’s Attorney General demands that charities
seeking annual licenses to communicate in his state
using charitable solicitations must first disclose to his
office Schedule B of Internal Revenue Service Form
990 showing names and addresses of certain donors.
Does this demand for disclosure of donors in the
charitable solicitation licensing process violate rights
of private association and the First Amendment
protections of charitable solicitations, including by
creating an unconstitutional condition on the exercise
of those rights, in addition to violating federal tax
information confidentiality law.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
TABLE OF AUTHORITIES .................................... iii
INTEREST OF THE AMICUS CURIAE ...................1
SUMMARY OF ARGUMENT.....................................2
ARGUMENT ...............................................................4
I.

RESPONDENT’S DRAGNET SCHEME
VIOLATES THE REQUIREMENT THAT
CHARITABLE SOLICITATION
REGULATION BE NARROWLY
TAILORED………………………………………12

II.

RESPONDENT’S ACTS CREATE AN
UNCONSTITUTIONAL CONDITION ON
OBTAINING A LICENSE TO ENGAGE IN
FIRST AMENDMENT RIGHTS……………..15

III.

RESPONDENT’S ACTS VIOLATE
CONSTITUTIONAL RIGHTS BY
VIOLATING FEDERAL LAW PROTECTING
CONFIDENTIAL TAX RETURN
INFORMATION………………………………..17

IV.

SPECIAL RULES FOR TAX-EXEMPT
ORGANIZATIONS STILL PROTECT
DONOR CONFIDENTIALITY……………….21

CONCLUSION………………………………………….28

iii
TABLE OF AUTHORITIES
U.S. CONSTITUTION
U.S. Const. amend. I ......................................... passim
U.S. Const. amend. IV ..............................................10
STATUTES AND RULES
26 U.S.C. § 6103…………………………………. Passim
26 U.S.C. § 6104 ............................................... passim
26 U.S.C. § 7213 ..................................................18, 26
26 U.S.C. § 7213A ...............................................18, 26
26 U.S.C. § 7431 ..................................................18, 26
Cal. Gov’t Code § 12511 ..............................................5
Cal. Gov’t Code § 12585 ..............................................6
Cal Code Regs., tit 11, § 301 .....................................13
CASES
Bantam Books v. Sullivan, 372 U. S. 58 (1963) .......14
Bates v. City of Little Rock, 361 U.S. 516 (1960)......11
Carroll v. Princess Anne, 393 U. S. 175 (1968) ........14

iv
FEC v. Massachusetts Citizens for
Life, Inc., 479 U.S. 238 (1986) ...............................6
Freedman v. Maryland, 380 U. S. 51 (1965) ............14
Illinois ex rel. Madigan v. Telemarketing
Associates, Inc., 538 U.S. 600 (2003) ...................13
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ...................................... passim
NAACP v. Button, 371 U.S. 415 (1963) ...................13
Nebraska Press Assn. v. Stuart,
427 U.S. 539 (1976) ..............................................14
Perry v. Sindermann, 408 U. S. 593 (1972)..............16
Regan v. Taxation With Representation
of Wash., 461 U. S. 540 (1983) .............................16
Riley v. National Federation of the Blind,
487 U.S. 781 (1988) ........................................12, 13
Schaumburg v. Citizens for Better Environment,
444 U.S. 620 (1980) ..............................................12
Secretary of State v. Munson,
467 U.S. 947 (1984) ........................................12, 13
Speiser v. Randall, 357 U. S. 513 (1958) ..................17
Wilkes v. Wood,
19 How St. Tr. 1153, (C.P.) (1763)...................9, 10

v
MISCELLANEOUS AUTHORITIES
Disclosure & Privacy Law Reference Guide, IRS
Publication 4639 (Rev. 10-2012), 1-49
https://www.irs.gov/pub/irs-pdf/p4639.pdf ..............21
Ilya Shapiro and Randal John Meyer, Obama’s
Weaponized Justice Department, Cato.org,
Oct. 30, 2015, https://www.cato.org/commentary/
obamas-weaponized-justice-department ....................7
Eric Swalwell, President Trump Has Weaponized
the Justice Department, Newsweek.com, May 11,
2020, https://www.newsweek.com/president-trumphas-weaponized-justice-department-opinion1503193 .......................................................................7
Internal Revenue Manual (09-22-2015),
“https://www.irs.gov/irm/part7/irm_07-028-002
........................................................................24, 25

1
INTEREST OF THE AMICUS CURIAE 1
American Target Advertising, Inc. has a strong
interest in the matters raised in this litigation because
it is America’s oldest and largest for-profit agency of its
type that provides creative services to nonprofit
organizations that communicate about their
tax-exempt missions and appeal for contributions. It is
itself registered with the California Registry of
Charitable Trusts, and its tax-exempt clients are
harmed by Respondent’s acts.

1 It is certified that counsel for the parties were timely
notified and have consented to the filing of this brief; that no
counsel for a party authored this brief in whole or in part; and
that no person other than the amicus curiae made a monetary
contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
Besides its arguments about the appropriate
standard of review in this case, Petitioner Americans
for Prosperity Foundation (“AFPF”) raises numerous
issues that your amicus American Target Advertising,
Inc. (“American Target”) respectfully argues deserve
even more consideration, and which make this case
even more important for certiorari to be granted. 2
Such issues underlying AFPF’s Petition involve what
should be proper checks on the discretionary,
unilateral acts of the Respondent in the charitable
solicitation licensing process. Here, innocence and
valuable First Amendment rights were already subject
to prior restraint. Charities must annually register
and obtain licenses with the California Registry of
Charitable Trusts before making communications that
include charitable appeals to Californians. Because of
the unilateral acts of Respondent, however, this prior
restraint now employs indiscriminate, untargeted,
dragnet violations of the right of private association as
a condition to obtain a license to engage in charitable
appeals. Much like unconstitutional general warrants,
these trespasses on the right of private association are
made without particularized or individualized
suspicion and cause, and are not a narrowly drawn
regulation of charitable solicitations.
Respondent’s actions present a host of violations of,
and greater dangers to, constitutionally and statutorily
2 The case brought by Thomas More Law Center, No. 19255, has been consolidated with the case brought by AFPF, and
when this amicus curiae brief refers to the “Petition,” it refers
strictly to the one filed by AFPF.

3
protected rights for which Respondent should be
checked and sternly rebuffed by the Court.
Respondent’s abuse of a licensing law, using dragnet
collection of confidential donor information from
Schedule B to Internal Revenue Service Form 990, also
violates the federal statutory regime protecting
confidential tax return information. Respondent
cleverly but unlawfully evades the statutory and
regulatory requirements for (1) access to, inspection of,
and inter-office disclosure of confidential tax return
information, (2) federal security protocols for those
who are legally provided access to such information
under the Internal Revenue Code, and (3) perhaps the
concomitant civil and criminal penalties for violations
of this federal regime protecting confidential federal
tax return information.
Respondent’s violations
involve unauthorized and therefore unlawful access to
the identity of donors to not only AFPF and Thomas
More Law Center, but other nonprofit organizations.
Many of such organizations are at the center of
controversial or unpopular political, social, and
religious causes and debates that political officials may
and often see as challenging to their own positions on
such issues. Donors to such causes rightly feel
threatened by violations of their right of private
association with those causes. While AFPF’s Petition
focused on First Amendment issues, Respondent’s acts
in violation of the First Amendment are in fact an
unattractive and legally unhealthy amalgamation of
disregard for the rule of law, and deserve a stern
rebuke.

4
ARGUMENT
Petitioner AFPF makes a compelling argument
that the Court needs to resolve important issues
affecting the standard of judicial review applied in this
case. It seems even our courts, not to mention those
who are regulating and regulated, have become
increasingly confused about the various judiciallycreated levels of review that apply when government
actions infringe on First Amendment and other
constitutionally protected rights. That confusion has
led in some cases, such as the present matter, to
courts’ increasingly acceding to government regulatory
power -- even, as in this case, where Respondent’s acts
are not expressly directed or authorized by statute -that infringes on protected rights, and even when prior
decisions about the subject matter (state charitable
solicitation laws) require statutes to be narrowly
tailored. This hedge towards greater ability of
government to infringe on rights can be, or is,
dangerous for liberty. Respondent’s acts in this case
are inconsistent with other constitutional doctrines
protecting liberty in the interplay of licensing and
constitutionally protected rights.
AFPF’s Petition identifies throughout how the
Respondent steamrolled over the right of private
association articulated in NAACP v. Alabama. 3 In
their dragnet, shotgun violations of the right of private
association, Respondent and his predecessor -- now
Vice President Kamala Harris -- have exceeded and
abused their authority to regulate charitable
3

357 U.S. 449 (1958).

5
solicitations in their capacities as head of the
California Registry of Charitable Trusts. They have
done so by requiring tax-exempt organizations seeking
licenses to solicit contributions in California to, as a
precondition of obtaining such licenses, disclose the
identity of donors named in the confidential Schedule
B to Form 990 filed with the Internal Revenue Service.
Petitioner rightly tells the court, “No California law or
regulation expressly requires charities to file their
Schedule Bs with the California Attorney General” to
obtain such licenses or to annually renew them. Pet. 6.
Indeed, irrespective of the source being Schedule B, no
California law requires registrants to disclose their
donors to the Attorney General as a precondition to
obtain licenses to solicit charitable contributions.
Respondent’s acts are therefore ultra vires. Inherently
adding to the intimidating and chilling nature of his
unconstitutional acts is that Respondent’s position as
Attorney General is as a politically elected official who
has the power to investigate and prosecute in areas
and matters far beyond fraud in the conduct of
charitable solicitations and application of funds for
charitable purposes. 4 Particularly because the causes
of nonprofit organizations registering with Respondent
may be ideologically critical of, or adverse to, his own
political leanings, policies, and ambitions, donors
rightfully may feel compromised through exposure of
what is private and innocent association.
4 “The Attorney General has charge, as attorney, of all
legal matters in which the State is interested, except the business
of The Regents of the University of California and of such other
boards or officers as are by law authorized to employ attorneys.”
Cal. Gov’t Code § 12511.

6
To justify his shotgun trespasses on the right of
private association – extortionately using a licensing
requirement (Cal. Gov’t Code § 12585) that operates as
a prior restraint on charitable solicitations protected
by the First Amendment -- Respondent attempts to add
to the existing unique justifications for regulating
political candidate campaign committees -- which
include the “historical role” of contributions in the
corruption or the appearance of corruption in elections
of public officials 5 -- with a comparably unremarkable
law enforcement rationale: “By identifying the donor,
the amount of the contribution, and the type of
donation received (cash or in-kind), [Schedule B]
provides
information
that
can
indicate
misappropriation or misuse of charitable funds and
can help state investigators determine whether the
organization and its donors are engaging in selfdealing.” Sup. Brief for Respondent 3 (emphasis
added). As explained below, prophylactic, imprecise
regulation for charitable solicitation licensing purposes
has been rejected by this Court.
Respondent’s stated motive for indiscriminately
and extortionately trespassing on the right of private
association in a way that can indicate need for law
enforcement, and can help state investigators, may
appear pure and honorable. However, law enforcement
would always be so much easier for Respondent and
5 See FEC v. Massachusetts Citizens for Life, Inc., 479
U.S. 238, 260 (1986), “In light of the historical role of
contributions in the corruption of the electoral process, the need
for a broad prophylactic rule was thus sufficient … to support a
limitation on the ability of a committee to raise money for direct
contributions to candidates.”

7
other government officials when violating our
fundamental and paramount law, the Constitution,
and if Americans were to abandon many of their civil
liberties, particularly those protecting privacy and
private association.
Respondent would also have the Court focus on
the perils to the right of private association only in
cases of leaked public disclosure of Schedule B (which
leaks already comes with potential civil and criminal
penalties under federal law described herein below)
instead of the inherent dangers of other abuses caused
by the politics, ideology, policy goals, and power of
government officials themselves that may be
“weaponized.” See, e.g., Eric Swalwell, President
Trump Has Weaponized the Justice Department,
Newsweek.com, May 11, 2020,
https://www.newsweek.com/president-trump-hasweaponized-justice-department-opinion-1503193 (last
visited Feb. 22, 2021); Ilya Shapiro and Randal John
Meyer, Obama’s Weaponized Justice Department,
Cato.org, Oct. 30, 2015,
https://www.cato.org/commentary/obamas-weaponizedjustice-department (last visited Feb. 22, 2021).
Your amicus American Target has experience
about which it may aid the Court, that helps explain
why Respondent’s law enforcement scheme is
constitutionally unreasonable in key respects
reminiscent of general warrants. American Target’s
founder and chairman Richard Viguerie 6 first
6
Mr. Viguerie was the 1972 recipient of the Direct
Marketing Association of Washington Hall of Leaders Award,

8
pioneered political and cause-related direct mail in the
1960s and 1970s. His methods have been copied and
replicated by many nonprofit organizations, including
charitable, ideological, and political. Using targeted
direct mail that initially seeks donations far less than
the Schedule B threshold, organizations are able to
make first direct contacts with prospective donors and
supporters. Those first contacts, if written well,
introduce an organization to potential supporters, and
describe the organization’s mission in ways that
hopefully make the mail recipients wish to become
donors or even nonfinancial supporters. Those who
respond to direct mail receive subsequent
communications to further bond the supporters with
the organization or cause. These communications may
be interactive, asking supporters to complete surveys
or take other actions consistent with the mission of the
organization. Executives or other personnel of those
organizations will often then try to develop deeper,
more personal relationships between themselves, the
organization, and the donors, and may succeed to the
point that the supporters cross the Schedule B
threshold with larger donations, gifts, and bequests.
https://www.dmaw.org/hall-of-leaders/ (last visited Feb. 22, 2021),
is a member of the American Association Political Consultants
Hall of Fame, https://theaapc.org/richard-a-viguerie/ (last visited
Feb. 22, 2021), and in 2000 both he and his liberal colleague Roger
Craver were awarded The Sisk Award for Direct Marketing Vision
by the Direct Marketing Association of Washington Educational
Foundation, https://www.dmawef.org/Awards/Awards/Sisk.html
(last visited Feb. 22, 2021).

9
As explained below, Respondent and other state
charitable solicitation officials may obtain Schedule B
information from the Internal Revenue Service on a
case-by-case basis.
State charitable solicitation
officials must comply with confidentiality protocols
established under federal law. Instead, Respondent
uses his licensing authority to coerce nonprofit
registrants to relinquish rights of private association
as a condition to exercising the constitutionally
protected right to solicit donations. That’s extortionate.
By his own justifications to this Court,
Respondent uses his extortionate prior restraint to
allegedly search or surveil for evidence of
misappropriation or misuse of charitable funds, or
donors engaging in self-dealing, but in ways akin to a
general warrant’s search without individualized,
particularized, or reasonable cause or suspicion. 7 His
The bases of individualized suspicion required for
searches are centuries old. From the transcribed testimony of
Recorder of London Eyre in Wilkes v. Woods:
7

He then observed that the present cause chiefly
turned upon the general question, whether a
secretary of state has a power to force persons’
houses, break open their locks, seize their papers,
&c. upon a bare suspicion of a libel by a general
warrant, without name of the person charged . . .
Nothing can be more unjust in itself, than that
the proof of a man’s guilt shall be extracted from
his own bosom. No legal authority, in the present
case, to justify the action. No precedents, no legal
determinations, not an act of parliament itself, is
sufficient to warrant any proceeding contrary to
the spirit of the constitution.

10
methods hopscotch over any Fourth Amendment
protections for his targets. And, as pernicious as
Alabama Attorney General Patterson’s objectives
against the NAACP were in the 1950s, at least
Patterson used a subpoena, giving the NAACP an
opportunity to object and have their objections heard
before an independent judge before being ultimately
compelled (or not, as the case turned out) to hand over
its list of supporters.
Respondent’s violations of the right of private
association harm the rights of every charity attempting
to register, and every donor listed on their Schedule
Bs.
It’s brilliantly extortionate, depriving
organizations that do not wish to comply with such
demands from exercising rights to communicate using
charitable appeals, and thereby cutting off donations to
finance their programs.
The following passage from Respondent’s
Supplemental Brief responding to the invitation brief
of the United States actually highlights his disregard
the right of private association:
This Court’s decisions addressing demands for
membership information from the NAACP
involved circumstances quite different from
this one. See U.S. Br. 21-22. In those cases,
government officials demanded disclosure of
the organization’s rank-and-file members at
the height of the civil rights movement—in
some cases, for disclosure to the public—in the
Wilkes v. Wood, 19 How St. Tr. 1153, 1154-55 (C.P.) (1763).

11
face of uncontroverted evidence that revelation
of members’ identities would lead to violence
and other reprisals. See NAACP v. Alabama ex
rel. Patterson, 357 U.S. 449 (1958); Bates v.
City of Little Rock, 361 U.S. 516 (1960). In
view of the historical context, it is no surprise
that those disclosure demands had nothing at
all to do with the governments’ purported
regulatory interests.
Such sweeping and
pretextual demands for membership lists are
not analogous to a state (or federal)
requirement that entities enjoying tax-exempt
status provide regulators with limited
information about their major donors on a
confidential basis, to advance compelling law
enforcement and regulatory interests.
Supplemental Brief for Respondent (Dec. 9, 2020) at 3.
Putting aside the question not at issue in this case
of whether collection of Schedule B information by the
IRS is itself a violation of the right of private
association, Respondent’s arguments nevertheless fail
to acknowledge the critical distinction that his status
as a politically elected official, with broad powers
(including prosecution) and reach under Title 2, Div. 3,
Part 2, Ch. 6 of the California Code 8 legislatively
establishing his powers, are incompatible with powers
and authorities of the IRS for tax collection. Unlike
the IRS, which must engage the separated United
8
https://law.justia.com/codes/california/2018/codegov/title-2/division-3/part-2/chapter 6/article-2/ (last visited Feb.
21, 2021).

12
States Department of Justice to bring enforcement
actions in court -- thereby creating somewhat of a wall
of objectivity -- Respondent heads his state’s
Department of Justice. His shotgun collection of donor
information gives him surveillance into the major
donors who privately associate with organizations that
may be critical of Respondent’s or California’s public
policies. That his trespasses against the right of
private association may be fewer in number per
organization than what the NAACP faced certainly
does not cure Respondent’s constitutional violations.
Respondent’s scheme allows him to create an “enemies
list” that, regardless of whether or not it is leaked to
the public, allow for targeting of politically motivated
investigations (or not investigating allies even when
there is cause), and more mischief.
I.

RESPONDENT’S
DRAGNET
SCHEME
VIOLATES THE REQUIREMENT THAT
CHARITABLE
SOLICITATION
REGULATION BE NARROWLY TAILORED

This court has repeatedly affirmed charitable
solicitations are protected by the First Amendment, 9
9 Four times since 1980 this Court has needed to rebuff
the over-aggressiveness of state charitable solicitation licensing
regulation to protect the vital First Amendment interests of
charitable speech and publication. “Regulation of a solicitation
must be undertaken with due regard for the reality that
solicitation is characteristically intertwined with informative and
perhaps persuasive speech * * * and for the reality that, without
solicitation, the flow of such information and advocacy would
likely cease.” Riley v. National Federation of the Blind, 487 U.S.
781, 802 (1988), citing Schaumburg v. Citizens for Better
Environment, 444 U.S. 620, 632 (1980), Secretary of State v.

13
and not just as commercial speech: “[C]haritable
solicitations ‘involve a variety of speech interests . . .
that are within the protection of the First Amendment,
and therefore have not been dealt with as ‘purely
commercial speech.’” Riley v. National Federation of
the Blind, 487 U.S. 781, 789 (1988). Riley is consistent
with prior decisions that rejected regulation of
charitable solicitations that is not “narrowly tailored”
(id. at 798), rejecting the “prophylactic, imprecise, and
unduly burdensome rule the State [had] adopted.” Id.
at 800.
California law requires that charities annually
register and become licensed with the Registry of
Charitable Trusts within the office of the Attorney
General before -- and as a condition of -- soliciting
donations from Californians. Petition 5, citing Cal
Code Regs., tit 11, § 301. Respondent’s dragnet,
prophylactic, and imprecise regulation using demands
for the names and addresses of certain donors to
charitable organizations that register to solicit
contributions -- regardless of innocence or lack thereof
-- are by nature and reason the opposite of narrowly
tailored regulation. "Broad prophylactic rules in the
area of free expression are suspect. Precision of
regulation must be the touchstone in an area so closely
touching our most precious freedoms." Riley, 487 U.S.
at 800, citing NAACP v. Button, 371 U.S. 415, 438
(1963).

Munson, 467 U.S. 947, 959 - 960 (1984). See also, Illinois ex rel.
Madigan v. Telemarketing Associates, Inc., 538 U.S. 600 (2003).

14
Compounding the unlawfulness, such demands
are acts of pure discretion by the Respondent in the
licensing process, since they are not required by
California law, as noted above. Discretion in the
context of licensing where First Amendment rights are
affected is dangerous and may be unconstitutional.
(“At the root of this long line of precedent is the timetested knowledge that in the area of free expression a
licensing statute placing unbridled discretion in the
hands of a government official or agency constitutes a
prior restraint and may result in censorship.”
Lakewood v. Plain Dealer Publishing Co., 486 U.S. 750,
757 (1988); “Only standards limiting the licensor's
discretion will eliminate this danger by adding an
element of certainty fatal to self-censorship.” Id. at
758. While Petitioner shows no examples of viewpoint
discrimination by Respondent in the licensing process
itself, First Amendment rights are nevertheless
directly harmed by this discretionary act in
California’s prior restraint licensing process.10 Private
association with causes that may be ideologically,
religiously, or politically at odds with the Attorney
General and those employees of his office who have
access to Schedule B donor information, is thereby
inherently placed at risk and chilled.

10 “Prior restraints on speech and publication are the
most serious and the least tolerable infringement on First
Amendment rights.” Nebraska Press Assn. v. Stuart, 427 U.S.
539, 559 (1976). “A system of prior restraint on expression comes
to this Court bearing a heavy presumption against its
constitutional validity.” Carroll v. Princess Anne, 393 U. S. 175,
181 (1968); citing Bantam Books v. Sullivan, 372 U. S. 58 (1963);
Freedman v. Maryland, 380 U. S. 51 (1965).

15
As AFPF explains, “[a]ctual, potential, and even
perceived donors report that they have been singled
out for audits and investigations by government
officials as a result of their donations (real or
perceived).” AFPF Pet. at 13. One harm, therefore, is
exposure of innocent association in what unfortunately
can be a nasty, duplicitous, ambitious, and sometimes
violent political world. Innocent anonymity and the
right of private association free from the government’s
prying and sometimes politically, religiously, or other
cause-related biased eyes is lost through Respondent’s
acts.
II.

RESPONDENT’S
ACTS
CREATE
AN
UNCONSTITUTIONAL CONDITION ON
OBTAINING A LICENSE TO ENGAGE IN
FIRST AMENDMENT RIGHTS

Besides not being a narrowly tailored regulation
of charitable solicitation, Respondent’s dragnet
demands for donor information in the annual
registration process are an extortionate condition
placed on registrants’ obtaining a “prior restraint”
license to engage in the First Amendment right of
soliciting contributions. The Ninth Circuit did not give
adequate consideration to the heavy presumption
against prior restraint as a starting point in its
analysis of Respondent’s acts. Indeed, Respondent’s
unlawful scheme to violate the right of private
association is quite cleverly extortionate, because it is
solicitations by tax-exempt organizations resulting in
donations that initially create the private association
with supporters of the cause. The first precedes the
second. It is a maxim of fundraising that there is only

16
one way to obtain a donation: ask. Therefore, the
extortionate condition is a chicken-and-egg situation
whereby registrants must forego rights of private
association in order to engage in rights of charitable
solicitation -- or be censored from asking for donations
at all.
Respondent therefore violates multiple rights
using the legally coerced, prior restraint need to obtain
an annual license to solicit donations.
It is
extortionate because Respondent knows that without
that license, tax-exempt organizations may not legally
engage in the First Amendment right to make appeals
that are the genesis of the right of private association
being violated by Respondent. Organizations refusing
to violate the right of private association with their
donors by failing to file Schedule B with Respondent
would be denied licenses to solicit contributions.
Therefore, Respondent’s demands interpose an
unconstitutional condition to obtain such licenses to
engage in constitutionally protected rights. As stated
in Regan v. Taxation With Representation, “[T]he
government may not deny a benefit to a person
because he exercises a constitutional right.” 461 U.S.
540, 545 (1983), citing Perry v. Sindermann, 408 U. S.
593 (1972), which had articulated the principle:
[E]ven though a person has no "right" to
a valuable governmental benefit, and
even though the government may deny
him the benefit for any number of
reasons, there are some reasons upon
which the government may not rely. It
may not deny a benefit to a person on a

17
basis that infringes his constitutionally
protected interest, especially his interest
in freedom of speech. For if the
government could deny a benefit to a
person because of his constitutionally
protected speech or associations, his
exercise of those freedoms would in effect
be penalized and inhibited. This would
allow the government to "produce a result
which [it] could not command directly."
Speiser v. Randall, 357 U. S. 513, 357 …
Such interference with constitutional
rights is impermissible.
In further violation of the First Amendment,
Respondent uses discretion in the licensing process to
create an unconstitutional condition on the right of
engaging in constitutionally protected charitable
solicitations.
III.

RESPONDENT’S
ACTS
VIOLATE
CONSTITUTIONAL RIGHTS BY VIOLATING
FEDERAL
LAW
PROTECTING
CONFIDENTIAL
TAX
RETURN
INFORMATION

Respondent’s purported law enforcement
objectives in obtaining and using Schedule B donor
information may be achieved under the federal
statutory regime that guards the confidentiality of tax
return inform.
The federal regime protects
confidential tax return information, but authorizes the
Secretary of the Treasury to make individualized
disclosures to state officials -- as opposed to the mass,

18
untargeted, extortionate collection used by Respondent
-- for specific law enforcement purposes.
The statutory tax information confidentiality
regime begins with 26 U.S.C. § 6103. The general
theme and core principles of this primary statute
governing the regime are rather explicit and plain:
“Returns and return information shall be confidential .
. . except as authorized by this title.” 26 U.S.C. §
6103(a) (emphasis added). The detailed statutory
regime that follows this plain, overarching directive
shows that it is ample and serious in its protection of
confidential tax return information, complete with
criminal and civil penalties for violations, found at 26
U.S.C. §§ 7213, 7213A, and 7431, which are addressed
below. Yet this regime is also designed to provide
structured, regulated, and tightly guarded access to
tax return information when federal and state law
enforcement needs, including inspection, must be
fulfilled.
Because of the unique nature of tax-exempt
organizations, this confidentiality regime includes
some special rules found at 26 U.S.C § 6104 (“Publicity
of information required from certain exempt
organizations and certain trusts”) for the tax
information of tax-exempt organizations filed with the
Internal Revenue Service.
The regime that is initiated at § 6103(a) applies
to “any return or return information obtained by [an
official] in any manner in connection with his service,”
and includes certain information of tax-exempt
organizations under § 6104:

19
[N]o officer or employee of any State, any
local law enforcement agency receiving
information under subsection (i)(1)(C) or
(7)(A),
any
local
child
support
enforcement agency, or any local agency
administering a program listed in
subsection (l)(7)(D) who has or had access
to returns or return information under
this section or section 6104(c) . . . .
26 U.S.C. § 6103(a)(2). As explained in greater detail
below, Schedule B donor information must be deemed
confidential and subject to the confidentiality regime
even under the special rules for greater disclosure of
tax information returns, Form 990, filed with the
Internal Revenue Service by tax-exempt organizations.
Having first established the overarching rule of
confidentiality of tax information filed with the
Internal Revenue Service as the starting point and
general principle, Congress then identifies at § 6103(d)
– (m) the federal and state law enforcement matters
for which the Secretary of the Treasury may disclose to
government officials -- i.e., provide access to -confidential tax information. This federal regime
makes inherent sense because it (1) strictly guards
confidential tax information, yet (2) authorizes state
officials to obtain confidential tax information from the
Internal Revenue Service (the Treasury Secretary’s
designee) when such information is needed for
authorized, legitimate law enforcement purposes.

20
In other words, the regime provides for
controlled release to, and access by, government
officials. Under the federal regime protecting the
confidentiality of federal information, state licensing
schemes are not identified as a method by which
confidential tax information may be unilaterally or
otherwise accessed by state officials. The rights
Respondent has violated are intertwined with this
federal statutory confidentiality regime protecting
Schedule B donor information.
Respondent’s demand that nonprofits file their
Schedule Bs in the licensing process itself creates
unlawful inspection or disclosure under the federal
regime. “The term ‘disclosure’ means the making
known to any person in any manner whatever a return
or return information.” § 6103(b)(8). The prohibition
therefore is not merely on disclosure to the general
public. A reading of the statutory regime shows “any
person” certainly must include officials and employees
within state (or federal) government whose offices are
not expressly authorized to view confidential tax
information under the federal regime. That reading is
not only consistent with the federal statutes, but seems
required because the federal regime expressly applies
to state officials and employees.11 Viewing confidential
tax information is not a government free-for-all. IRS
Publication 4639, for example, interprets legal
This brief does not address the split in the circuits
about disclosure in certain other circumstances, such as
publication after trial in which confidential tax information was
used at trial, since that split does not address whether licensing is
unauthorized disclosure.
11

21
disclosure for purposes of whether to assess liability as
only that which is authorized by statute: “For a
disclosure of any return or return information to be
authorized by the Code, there must be an affirmative
authorization because section 6103(a) otherwise
prohibits the disclosure of any return or return
information by any person covered by section
7213(a)(1).” Disclosure & Privacy Law Reference
Guide, Publication 4639 (Rev. 10-2012) 1-49,
https://www.irs.gov/pub/irs-pdf/p4639.pdf (last visited
Feb. 20, 2021). Respondent’s dragnet licensing scheme
is not an affirmatively authorized method of viewing
confidential tax information.
IV.

SPECIAL
RULES
FOR
TAX-EXEMPT
ORGANIZATIONS STILL PROTECT DONOR
CONFIDENTIALITY

§ 6104 of Title 26, entitled “Publicity of
information
required
from
certain
exempt
organizations and certain trusts,” provides some
unique rules for tax and tax return information filed
with the IRS by tax-exempt organizations, including
IRS Form 990, and how those Form 990s are made
available for public inspection. § 6104(c) covers
“Publication to State officials,” and paragraph (2)(C)
provides “Procedures for disclosure.” Again, this reenforces that the term “disclosure” in the context of the
federal confidentiality regime means making
confidential tax information available to government
officials, even in the context of their work, and not just
disclosure to the public.
Respondent therefore
incorrectly focuses merely on disclosure of this
confidential information to the public, such as through

22
leaks and Internet publication, and AFPF highlights
its concerns about public disclosure in the Petition’s
section “The Demonstrated Pattern of Confidentiality
Violations By California.” AFPF Pet. at 7-10. But
those concerns skip right over one of the significant
purposes of the federal tax information confidentiality
regime, which is to define and limit the conditions
under which even state officials may access and inspect
confidential tax return information.
Under § 6104(c) “Publication to state officials,”
“[i]nformation may be inspected or disclosed” only upon
written request “by an appropriate State officer,” (§
6104(c)(2)(C)) and restricts inspection and inter-office
disclosure:
Such information may only be inspected
by or disclosed to a person other than the
appropriate State officer if such person is
an officer or employee of the State and is
designated by the appropriate State
officer to receive the returns or return
information under this paragraph on
behalf of the appropriate State officer.
This provision further justifies the interpretation that
restriction on “disclosure” in this confidentiality regime
not only applies to publication to the general public,
but is a restriction on access by state officials and
employees. Respondent’s focus on publication to the
general public, and not on access by Respondent
himself and his employees -- or other state employees -therefore would allow him to evade the law, i.e., his
obligations to comply with the federal tax information

23
confidentiality regime. § 6104(c)(2)(D) also provides:
The Secretary may make available for
inspection or disclose returns and return
information of an organization to which
paragraph (1) applies to an appropriate
State officer of any State if the Secretary
determines that such returns or return
information may constitute evidence of
noncompliance under the laws within the
jurisdiction of the appropriate State
officer.
Not only has the Secretary not authorized collection of
Schedule Bs via licensing, but the statute indicates the
Secretary’s purview to disclose tax information to state
officials when it may constitute evidence of
noncompliance. The dragnet, prophylactic method
employed by Respondent targeting innocently
exercised rights -- and only incidentally capturing any
guilt -- is inconsistent with lawful methods by which
Respondent may access Schedule Bs for law
enforcement purposes. This further demonstrates that
Respondent’s untargeted, general warrant-like
collection of Schedule Bs is unlawful under the
confidentiality statutes in addition to being
unconstitutional.
While IRS Form 990s are required to be
available to the public under the unique rules of §
6104(d) -- “Public inspection of certain annual returns,
reports, applications for exemption, and notices of
status” -- the donor information filed on Schedule B is
not available to the public under the express language

24
of § 6104(d)(3), “Nondisclosure of contributors, etc.,”
which states in relevant part:
In the case of an organization which is
not a private foundation (within the
meaning of section 509(a)) or a political
organization exempt from taxation under
section 527, paragraph (1) shall not
require the disclosure of the name or
address of any contributor to the
organization.
§ 6104(d)(3)(A).
Schedule B donor information
therefore remains confidential tax return information
under the overarching rule of confidentiality, and
restricted by that regime in how it may be accessed,
despite all the hopping around through the statutory
regime one must follow to reach that very simple,
certain, pragmatic, and constitutionally sound
conclusion. That this regime may be less convenient
for Respondent to gather Schedule B information for
his law enforcement purposes is irrelevant to the
protection of confidential tax information. In fact, it is
a feature, not a bug.
The federal regime’s protocols protecting
confidential tax return information when and after the
IRS lawfully provides it to state officials are rigid, and
guard against misuse. Those state officials to whom
the IRS discloses confidential tax information are
obligated to sign “Disclosure Agreements” agreeing to
strict security arrangements and even audits to ensure
compliance. See Internal Revenue Manual 7.28.2.2
(09-22-2015),
“Disclosure
Agreements,”
\

25
https://www.irs.gov/irm/part7/irm_07-028-002 (last
visited Feb. 20, 2021), which states, “[T]he IRS will
only make disclosures under IRC 6104(c) to those state
agencies that have submitted their Safeguard Security
Report (SSR) to [the IRS office of Privacy,
Governmental Liaison, and Disclosure] and have
entered into a disclosure agreement with the IRS
regarding IRC 6104(c).” Respondent’s scheme to
surveil Schedule B information in a shotgun manner
not only violates the statutory and constitutional
safeguards pertaining to access, but evades the federal
oversight, compliance, and security protocols for
federal tax return information.
“Disclosure,” therefore, is not merely disclosure
to the public or disclosure by the IRS, but internal
disclosure by state government agencies to employees
not authorized to possess the information. Respondent
has thus boldly and flagrantly transgressed the federal
statutory regime that expressly provides the terms,
circumstances, and conditions under which
confidential tax return information may be accessed
and used in state law enforcement matters, and which
guard against unauthorized disclosure and inspection
of such confidential tax return information.
Respondent’s disregard and violations of constitutional
rights go hand-in-hand with his violations of federal
tax information confidentiality law, yet he asks this
Court to trust him.
This federal regime includes criminal and civil
penalties for state officials and employees, which
Respondent’s actions seem designed to allow the
Registry of Charitable Trusts to evade by hopscotching

26
over the federal laws and protocols zealously protecting
confidential tax information. The criminal and civil
penalties for unauthorized disclosure or inspection of
confidential tax information are found at 26 U.S.C. §
7213 (“Unauthorized disclosure of information,” which
makes willful violations a “felony punishable upon
conviction by a fine in any amount not exceeding
$5,000, or imprisonment of not more than 5 years, or
both”), § 7213A (“Unauthorized inspection of returns or
return information,” making violations “punishable
upon conviction by a fine in any amount not exceeding
$1,000, or imprisonment of not more than 1 year, or
both”), and § 7431 (“Civil damages for unauthorized
inspection or disclosure of returns and return
information” providing the greater of actual damages
or “$1,000 for each act of unauthorized inspection or
disclosure of a return or return information”). These
statutory penalties further evidence the serious
congressional purpose of protecting confidential federal
tax information.
It seems quite contrary to the existential
purposes of the federal statutory regime protecting
confidential federal tax information filed with the
federal tax service if it were to be construed to allow
states or state officials acting unilaterally to evade its
strict protocols and concomitant penalties through
dragnet licensing schemes like the one employed by
Respondent. The federal regime is clear that it applies
to, and restricts access by, state officials and
employees. Such access is a danger in and of itself,
especially with regard to sensitive federal tax
information such as Schedule B donor names and
addresses. But especially in the age of the Internet,

27
Registry of Charitable Trust employees could widely
leak such confidential federal tax information with less
or no fear of the federal civil or criminal penalties that
apply under the confidentiality regime. Respondent’s
actions, unless rebuked, encourage every state to now
follow his bad example, opening floodgates to evade the
strict protocols and security measures that (1) only
legally authorized state officials with genuine law
enforcement needs may be granted access to such
private information, (2) such information is not abused
for political or discriminatory purposes, (3) such
information is not leaked through back channels to the
media or widely disclosed on the Internet to the public,
and (4) state officials and employees do not evade the
federal civil and criminal penalties in this federal
regime.
This federal regime does not seem to impose -and your amicus does not suggest -- a restriction on the
authority of states to use legally issued subpoenas or
civil investigative demands to obtain Schedule B
information
from
individualized
targets
of
investigations on a case-by-case basis. Respondent’s
shotgun, Precrime Division collection of Schedule B,
however, does not meet the criteria of reasonable cause
and the opportunity to challenge in court such
investigations.
This federal regime, if it were properly applied
to the California Attorney General’s dragnet gathering
the Schedule B donor information at issue in this case,
is consistent with this Court’s rebuke of Alabama
Attorney General Patterson in NAACP v. Alabama.

28
CONCLUSION
Respondent’s violations of rights are many and
dangerous to liberty and the rule of law over
government officials, and need to be rebuked.
Respondent’s exercise of power is not expressly
authorized by California’s charitable solicitation law,
which law is already a prior restraint on the First
Amendment right to engage in charitable solicitation,
and comes with a heavy burden on the Respondent to
justify its constitutionality. Respondent’s acts are not
narrowly tailored regulation affecting the important
First Amendment rights inherent in charitable
solicitations, and should be deemed constitutionally
unacceptable.
His office’s annual collection of
individuals’ donor information are mass, untargeted
“trespasses upon fundamental freedoms protected by
the Due Process Clause of the Fourteenth Amendment”
(NAACP v. Alabama, 357 U.S. at 460), and violate the
right of private association. Respondent’s acts create
an unconstitutional condition, making registrants
trade off First Amendment rights against rights of
private association. Respondent’s acts in violation of
these rights also are rogue violations of federal law
expressly governing access to, disclosure of,
examination of, and federally required security of
confidential federal tax return information by state
officials and employees. This Court should rule for the
petitioners.

29
Respectfully submitted,
MARK J. FITZGIBBONS
Counsel of Record
AMERICAN TARGET
ADVERTISING, INC.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgibbons@americantarget.com
Counsel for Amicus Curiae

